No. 19-430

In the
Supreme Court of the United States
ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INNOVATION LTD., AND MAX-PLANCK-GESELLSCHAFT
ZUR FORDERUNG DER WISSENSCHAFTEN E.V.,
Petitioners,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA MAYO
MEDICAL LABORATORIES, AND MAYO CLINIC,
Respondents.

On Petition For a Writ of Certiorari to
The United States Court of Appeals
for the Federal Circuit

BRIEF IN OPPOSITION
JONATHAN E. SINGER
Counsel of Record
Fish & Richardson P.C.
12390 El Camino Real
San Diego, CA 92130
(858) 678-5070
singer@fr.com

ELIZABETH M. FLANAGAN
DEANNA J. REICHEL
Fish & Richardson P.C.
3200 RBC Plaza
60 South Sixth Street
Minneapolis, MN 55402
(612) 335-5070

Counsel for Respondents

i
QUESTION PRESENTED
Whether patent claims to a method of diagnosis
are ineligible under 35 U.S.C. § 101 where the
claims employ admittedly “standard” and
“known” laboratory techniques to detect the presence of an autoantibody that, when present, correlates to a particular disease.

ii
RULES 24(B) AND 29.6 STATEMENT
All parties are identified in the caption of this
brief. Respondent Mayo Collaborative Services, LLC,
a subsidiary of Mayo Clinic, is a for-profit Minnesota
corporation that provides reference laboratory services under the name Mayo Medical Laboratories. Respondent Mayo Clinic is a non-profit organization. No
publicly held company owns 10% or more of the stock
of either respondent.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED.......................................... i
RULES 24(B) AND 29.6 STATEMENT .................... ii
INTRODUCTION ........................................................1
STATEMENT ..............................................................3
I. THE ’820 PATENT COVERS OBSERVING A
NATURAL LAW USING KNOWN TECHNIQUES ...........3
A. The Inventors Uncovered a Natural
Law: The Correlation Between
Autoantibodies to a Known Protein
(MuSK) and a Known Disease
(Myasthenia Gravis) .........................................3
B. The Patent Describes Only Known
Ways to Observe the Natural Law ..................5
C. The Patent Covers All Diagnoses
Involving the Newfound Natural Law .............6
II. WITHOUT ANY EVIDENT “CONFUSION” OR
DIFFICULTY IN APPLYING MAYO, THE LOWER
COURTS FOUND ATHENA’S CLAIMS
INELIGIBLE ..............................................................8
A. The District Court Dismissed Athena’s
Complaint in Reliance on Mayo .......................8
B. The Federal Circuit Affirmed, Also
Relying on Mayo ...............................................9
C. The Federal Circuit Denied Athena’s
Petition for Rehearing .................................... 11
REASONS FOR DENYING THE PETITION .......... 13
I. THE COURT SHOULD DECLINE ATHENA’S
INVITATION TO CHANGE HOW IT INTERPRETS
§ 101 ...................................................................... 13

iv
TABLE OF CONTENTS—continued
Page
A. This Court Has Already Clarified the
Eligibility Considerations for Claims
Involving a Natural Law ................................ 14
B. The Federal Circuit Has Applied this
Court’s Eligibility Precedent
Consistently Since Mayo ................................ 18
II. THIS CASE IS NO DIFFERENT THAN THE
OTHER § 101 DECISIONS THIS COURT HAS
DECLINED TO HEAR SINCE MAYO AND DOES
NOT WARRANT REVIEW ......................................... 22
A. Far from Being an “Ideal” Case for
Review, Finding Athena’s Claims
Eligible Would Require Substantial
Revision of this Court’s § 101 Precedent ....... 22
B. Under this Court’s Precedent, Marked
Differences Are Required Before a
Natural Product May Impart
Patentability, and None Are Present
Here ................................................................. 25
C. Athena’s Preemption Argument
Violates Precedent, and Seeks to
Circumvent the Law of Eligibility
Through “The Draftsman’s Art” ..................... 29
III.ATHENA’S POLICY CONCERNS ARE
UNWARRANTED AND NOT THE PROVINCE OF
THIS COURT ........................................................... 30
A. There Is No Evidence that this Decision
Will Negatively Impact Diagnostics
Innovation ....................................................... 31
B. Policy-Based Statutory Change Is the
Province of Congress ...................................... 33

v
TABLE OF CONTENTS—continued
Page
CONCLUSION .......................................................... 35

vi
TABLE OF AUTHORITIES
Page(s)
Cases
Alice Corp. v. CLS Bank Int’l,
573 U.S. 208 (2014) ...................................... passim
Am. Fruit Growers, Inc. v. Brogdex Co.,
283 U.S. 1 (1931) ............................................ 26, 27
Ariosa Diagnostics, Inc. v. Sequenom,
Inc.,
788 F.3d 1371 (Fed. Cir. 2015), cert.
denied, 136 S. Ct. 2511 (2016) ................. 18, 19, 30
Ass’n for Molecular Pathology v. Myriad
Genetics, Inc.,
569 U.S. 576 (2013) .............................. 1, 17, 26, 27
Ass’n for Molecular Pathology v. U.S.
Patent & Trademark Office,
689 F.3d 1303 (Fed. Cir. 2012) ............................ 28
Bilski v. Kappos,
561 U.S. 593 (2010) .................................. 17, 25, 30
Cleveland Clinic Found. v. True Health
Diagnostics, LLC,
859 F.3d 1352 (Fed. Cir. 2017), cert.
denied, 138 S. Ct. 2621 (2018) ....................... 19, 30
Deepsouth Packing Co. v. Laitram
Corp.,
406 U.S. 518 (1972) .............................................. 35

vii
Diamond v. Chakrabarty,
447 U.S. 303 (1980) ........................................ 27, 28
Diamond v. Diehr,
450 U.S. 175 (1981) ............................ 16, 17, 24, 30
Endo Pharms., Inc. v. Teva Pharms.
USA, Inc.,
919 F.3d 1347 (Fed. Cir. 2019) ............................ 21
Funk Bros. Seed Co. v. Kalo Inoculant
Co.,
333 U.S. 127 (1948) ........................................ 27, 28
Genetic Techs., Ltd. v. Merial, LLC,
818 F.3d 1369 (Fed. Cir. 2016), cert.
denied, 137 S. Ct. 242 (2016) ......................... 19, 30
John R. Sand & Gravel Co. v. United
States,
552 U.S. 130 (2008) .............................................. 17
Mayo Collaborative Servs. v.
Prometheus Labs., Inc.,
566 U.S. 66 (2012) ........................................ passim
Microsoft Corp. v. AT & T Corp.,
550 U.S. 437 (2007) .............................................. 35
Parker v. Flook,
437 U.S. 584 (1978) .................................. 16, 24, 30
Patterson v. McLean Credit Union,
491 U.S. 164 (1989) .............................................. 17

viii
Prometheus Labs., Inc. v. Mayo
Collaborative Servs.,
628 F.3d 1347 (Fed. Cir. 2010) ............................ 24
Radovich v. Nat’l Football League,
352 U.S. 445 (1957) .............................................. 34
Rapid Litig. Mgmt. v. CellzDirect, Inc.,
827 F.3d 1042 (Fed. Cir. 2016) ...................... 20, 33
Roche Molecular Sys., Inc. v. Cepheid,
905 F.3d 1363 (Fed. Cir. 2018) ............................ 19
Vanda Pharms., Inc. v. West-Ward
Pharms., Inc.,
887 F.3d 1117 (Fed Cir. 2018) ....................... 20, 21
Statutes
35 U.S.C. § 101 .................................................. passim
35 U.S.C. § 271(f)....................................................... 35
Other Authorities
Fed. R. Civ. P. 12(b)(6) .......................................... 8, 31
Arti K. Rai & Colleen Chien,
Presentation at the Duke Center for
Applied Genomics and Precision
Medicine: Intellectual Property in
Precision Medicine (Feb. 15, 2018),
https://perma.cc/222C-PCQ9;Concert.................. 32

ix
Alex De Winter, Why It’s a Good Year
for Diagnostic Startups, MedCity
News (Aug. 24, 2017),
https://perma.cc/NS8M-89YS .............................. 32
Concert Genetics, The Current
Landscape of Genetic Testing (Mar.
2017), https://perma.cc/K5KX-MST6 .................. 32
Sec’y’s Advisory Comm. on Genetics,
Health, and Soc’y, Dep’t of Health &
Human Servs., Gene Patents and
Licensing Practices and Their
Impact on Patient Access to Genetic
Tests (Apr. 2010),
https://perma.cc/XBC8-Q98D .............................. 32
Question Diagnostics Inc. (DGX, U.S.:
NYSE), Wall St. J.,
https://perma.cc/CMC7-7X3X .............................. 33

INTRODUCTION
Patent claims directed to a natural law that employ only conventional and routine activities to detect
that law are not patent eligible. Mayo Collaborative
Servs. v. Prometheus Labs., Inc., 566 U.S. 66, 73
(2012). That rule disposes of this case, as the district
court, appellate panel, and en banc Federal Circuit
each concluded.
After years of the lower courts neglecting this
rule, this Court clarified this requirement just seven
years ago in Mayo, endorsing “a bright-line prohibition against patenting laws of nature . . . .” Id. at 89.
Mayo holds that “a process reciting a law of nature” is
not patentable “unless that process has additional features that provide practical assurance that the process is more than a drafting effort designed to monopolize the law of nature itself.” Id. at 77-78.
Mayo set forth a two-part framework for assessing
eligibility that this Court endorsed again in Alice
Corp. v. CLS Bank Int’l, 573 U.S. 208, 217-18 (2014).
Under that framework, a court first determines if the
claim is directed to a law of nature and, if so, then asks
if the claim contains an “inventive concept,” or patenteligible application of the law of nature. Id. This
framework reinforces that “[g]roundbreaking, innovative, or even brilliant discovery does not by itself satisfy the § 101 inquiry.” Ass’n for Molecular Pathology
v. Myriad Genetics, Inc., 569 U.S. 576, 591 (2013).
Since that time, despite ample opportunity, Congress has not acted to change the Mayo/Alice framework, which, despite Athena’s protestations, only allows patent challengers to assert what the law always
had been—that natural laws are for all to use, and
may not be patented, whether broadly or narrowly, by

2
appending the natural law to an otherwise conventional process.
Nothing about the facts of this case warrant revisiting this Court’s eligibility framework or reversing
the decision below.
Athena’s ’820 patent discloses the discovery of a
natural law: a previously unknown reason why some
patients suffer from disease—they generate autoantibodies that bind to a protein in the body called MuSK,
which itself had previously been known to exist.
The patent fails, however, to claim any innovative
application of that natural law. Rather, the patent
generically claims any way of detecting the problem
autoantibodies to diagnose disease, and then itemizes
two particular but admittedly “known” techniques for
doing so. One such known technique is described by
the claims Athena emphasizes here. As the patent
confesses, scientists had long used that technique to
detect a different autoantibody already known to
cause the very disease central to the inventors’ newfound natural law.
The relevant patent claims thus do no more than
enable diagnosis by swapping out one natural law for
another in a well-defined, routine activity for detecting autoantibodies. In other words, they recite nothing more than conventional or obvious pre-solution activity, and so lack the type of inventive concept this
Court has long required. The claims thus run afoul of
Mayo and are not patent eligible.
Athena, amici, and various Federal Circuit judges
disapprove of this outcome. They plead that all medical diagnostics should be patent eligible. They posit
that patent claims making use of man-made materials; or that require multiple laboratory-based steps,

3
however conventional; or that detect something no
one had previously looked for should be patent eligible. And they speculate, without any record support,
that scientific research and the public health will suffer if all medical diagnostic methods are not patent eligible, even in the face of dramatically increased investment in diagnostics since Mayo.
But these are all policy concerns for Congress to
examine and address; this Court’s precedent, including Mayo, has already considered each one.
There is thus no work for this Court to do here.
This Court has already interpreted § 101 of the Patent
Act and laid down a clear boundary around what is
and is not patent eligible. Athena’s patent claims fall
squarely on the ineligible side of that boundary. Any
further action regarding the patentability of medical
diagnostic claims such as Athena’s that employ conventional, known techniques should and does rest
with Congress.
STATEMENT
I.

THE ’820 PATENT COVERS OBSERVING
RAL LAW USING KNOWN TECHNIQUES

A

NATU-

A. The Inventors Uncovered a Natural Law:
The Correlation Between Autoantibodies to a Known Protein (MuSK) and a
Known Disease (Myasthenia Gravis)
Myasthenia gravis, or MG, is a neuromuscular
disorder characterized by the weakness and rapid fatigue of skeletal muscles. C.A.J.A. 43 (1:13-23); App.
3a. In the 1960s, decades before the ’820 patent inventors filed their first patent application in 2000, re-

4
searchers found that a type of naturally occurring antibody directed against a protein called the acetyl choline receptor (AChR) caused MG. C.A.J.A. 35, 43
(1:24-36). These types of antibodies, which recognize
naturally occurring bodily substances as foreign antigens, are known as autoantibodies. C.A.J.A. 43 (1:4245). MG was thus identified as autoimmune in origin.
The ’820 patent teaches that before the inventors’
research project began, clinical diagnosis of MG could
largely be confirmed by testing patient fluid samples
for the presence of AChR autoantibodies. The patent
describes using a technique known as immunoprecipitation to do so. That involves incubating AChR labeled with a radioactive isotope (“radiolabeled AChR”)
with a patient sample and then detecting whether the
so-labeled AChR had bound to any AChR autoantibodies present in the fluid. The culprit AChR autoantibodies appeared in about 80% of patients with MG.
C.A.J.A. 43 (1:34-36). This diagnostic work was done
in the 1970s and 1980s. See C.A.J.A. 48 (at listed references 4 and 6); see also C.A.J.A. 44 (4:10-12 (citing
references 4 and 6)).
Pinpointing the cause of the remaining 20% of MG
cases was the research interest of the named inventors of the ’820 patent. According to the patent, the
inventors screened the plasma of patients who lacked
AChR autoantibodies to look for alternative autoantibodies that might cause disease. C.A.J.A. 43 (1:3653). Their research showed that many such patients
had autoantibodies directed against a different protein receptor in the body called MuSK (muscle-specific
tyrosine kinase). Though the MuSK protein receptor
had been known since the mid-1990s, it had not yet
been linked to disease. C.A.J.A. 43 (2:51-60).

5
Taking the patent at its word, the inventors thus
discovered a pre-existing, natural relationship between a naturally occurring bodily substance—autoantibodies that bind to MuSK—and the incidence of
MG and other MuSK-related disorders. That is a natural law.
B. The Patent Describes Only Known Ways
to Observe the Natural Law
The ’820 patent issued in 2007, well before Mayo.
Perhaps because of this, the patent gives little consideration to that decision’s inventive concept inquiry.
Instead, the patent’s goal is to monopolize the diagnosis of MG and other MuSK-related diseases based on
use of the newfound natural law. How? By detecting
the MuSK autoantibodies that are central to observing it. C.A.J.A. 43-44 (2:61-3:3, 3:25-32).
Importantly, the ’820 patent describes only admittedly “known” ways to detect MuSK autoantibodies,
including the same immunoprecipitation method previously used to detect AChR autoantibodies and diagnose MG. As the patent explains, “[t]he actual steps
of detecting autoantibodies in a sample of bodily fluids
may be performed in accordance with immunological
assay techniques known per se in the art.” C.A.J.A
44 (3:33-35) (emphases added).
After directing the reader to use these “known”
techniques, the patent describes two of them in detail:
the ELISA and immunoprecipitation techniques.
ELISA involves formation of a complex between
MuSK, MuSK autoantibodies, and a secondary antibody that can be readily detected. C.A.J.A. 44 (3:3665). Immunoprecipitation is the same technique as
that used to detect AChR autoantibodies, except

6
MuSK replaces AChR. It involves formation of a complex between labeled MuSK and MuSK autoantibodies, separating (immunoprecipitating) the complex
from solution, and then detecting the label on MuSK
to signal the presence of the MuSK autoantibodies.
C.A.J.A. 44 (3:66-4:12). The patent characterizes immunoprecipitation, together with a form of radioactive
labeling using iodine called iodination, as “standard
techniques in the art, the details of which may be found
in references.” C.A.J.A. 44 (4:10-12) (emphasis added).
Central to both disclosed techniques is the natural binding of MuSK autoantibodies to MuSK. That
inherent physical relationship, which the petition
wrongly characterizes (at 2) as a “chemical reaction[],”
is part and parcel of the inventors’ newfound natural
law.
C. The Patent Covers All Diagnoses Involving the Newfound Natural Law
Collectively, the ’820 patent claims cover all methods of diagnosing any MuSK-related diseases by detecting the presence of MuSK autoantibodies and
thereby observing the newfound natural law.
Claims 1 and 12 are broadest and generically
cover diagnosis of a MuSK-related disease by detecting MuSK autoantibodies in bodily fluid. C.A.J.A. 4849. Claims 10 and 11 relate back to claim 1, and
merely add a recitation of which particular diseases
are diagnosed. Id. Claim 2 also relates back to claim
1, and adds detection of MuSK autoantibodies after
incubating MuSK in a bodily fluid, thus implicating
the natural, physical binding between the two.
C.A.J.A. 48. Together, these five claims preempt all
ways—known and unknown as of the patent’s filing

7
date—of diagnosing MuSK-related disease by observing the MuSK autoantibodies central to the newfound
natural law.
Claims 3 through 9 “narrow” these broad claims
by covering the two “standard” and “known” techniques the patent describes. Claims 3 through 6 cover
the previously used ELISA technique, C.A.J.A. 48;
C.A.J.A. 44 (3:36-65), while claims 7 through 9 cover
the immunoprecipitation technique, C.A.J.A. 48-49;
C.A.J.A. 44 (3:66-4:12). Notably, for all of Athena’s
focus on MG, none of these claims is limited to just
that disease; rather, they extend to diagnosis of any
MuSK-related disease.
Claim 9, the focus of the petition, embodies the
newfound natural law with the “known” immunoprecipitation technique. Specifically, the claim requires
use of MuSK that is labeled with radioactive iodine,
125I, and subsequent detection of any MuSK-autoantibody complexes that form after the iodine-labeled
MuSK is mixed with a patient sample. C.A.J.A. 4849. As noted, the patent describes both immunoprecipitation and iodination as “standard techniques in
the art.” C.A.J.A. 44 (4:10-4:12).1
All told, neither the ’820 patent nor its claims offer
any contribution to the field of medical diagnostics
aside from reporting the newfound natural law. While
Athena strains to argue otherwise, the record is estab-

1

The petition describes (at 7) claim 9 as requiring the
use of a secondary antibody to achieve immunoprecipitation. That is wrong; neither claim 9 nor the patent’s description of immunoprecipitation is so specific. C.A.J.A. 44 (3:66-4:12); C.A.J.A. 48-49; see also
App. 11a.

8
lished; the ’820 patent employs only standard techniques scientists and clinicians had employed for decades to detect autoantibodies before the inventors uncovered their autoantibody-related natural law.
II. WITHOUT ANY EVIDENT “CONFUSION” OR DIFFICULTY IN APPLYING MAYO, THE LOWER COURTS
FOUND ATHENA’S CLAIMS INELIGIBLE
A. The District Court Dismissed Athena’s
Complaint in Reliance on Mayo
Mayo offers medical diagnostic testing for Mayo
Clinic and others through Mayo Medical Laboratories,
a global reference laboratory that provides diagnostic
tests across a wide range of health care subspecialties.
Two of those tests relate to the diagnosis of MG. In
the complaint, Athena accused these tests of infringing the ’820 patent.
Mayo moved to dismiss the complaint under Fed.
R. Civ. P. 12(b)(6), raising the § 101 eligibility issue
for each claim in the patent. Mayo argued that the
’820 patent’s claims were directed to the inventors’
newfound, but ineligible, natural law, and employed
only techniques commonly used in the field, so lacked
an inventive concept.
Citing Mayo, the district court granted that motion based on the pleadings, the patent, and Athena’s
additional admission that using labels, including 125I,
was known in the art. C.A.J.A. 5-12; C.A.J.A. 313-14.
The district court’s judgment reached only claims 6-9;
apparently unwilling to defend their validity, Athena
chose to drop claims 1-5 and 10-12 during the proceedings.

9
B. The Federal Circuit Affirmed, Also Relying on Mayo
The Federal Circuit affirmed the district court’s
judgment dismissing Athena’s complaint in a 2-1 decision. The court faithfully applied the two-step
framework set forth in Alice and Mayo to reach that
decision.
Under the first part of the test, the Federal Circuit
found the claims were “directed to” a law of nature.
The court first identified the relevant natural law as
“the correlation between the presence of naturally-occurring MuSK autoantibodies in bodily fluid and
MuSK related neurological diseases like MG.” App.
9a. It then reviewed claims 7-9 and concluded they
“involve[d] both the discovery of a natural law and certain concrete steps to observe its operation.” App. 11a.
But, it found the claims’ steps “only apply conventional techniques to detect the natural law.” Id. Accordingly, applying Mayo, the court concluded “that
claims 7-9 are directed to a natural law because the
claimed advance was only in the discovery of a natural
law, and that the additional recited steps only apply
conventional techniques to detect that natural law.”
Id.
The court relied on the specification in making
that finding, noting that the inventors described their
discovery only in terms of the natural correlation between autoantibodies and presence of MuSK-related
disease. App. 12a. And when discussing the “claimed
concrete steps for observing the natural law,” the
specification describes them as “known per se in the
art” and “standard techniques in the art.” Id. (quoting
’820 patent at 3:33-37, 4:10-12). The court concluded
that the patent itself “describes the claimed invention
principally as a discovery of a natural law, not as an

10
improvement in the underlying immunoassay technology.” Id.
The court took pains to distinguish Athena’s
claims, “which recite a natural law and conventional
means for detecting it,” from other claims that may
recite “applications of natural laws, which are patenteligible,” such as new methods of treating a disease.
App. 14a. The court explained that “[c]laiming a natural cause of an ailment and well-known means of observing it is not eligible for patent because such a
claim in effect only encompasses the natural law itself.” Id. In contrast, “claiming a new treatment for
an ailment, albeit using a natural law, is not claiming
the natural law.” Id.
Having found Athena’s claims directed to a natural law, the court moved on to the second part of the
framework—“whether the limitations of the claim
apart from the law of nature, considered individually
and as an ordered combination, ‘transform the nature
of the claim into a patent-eligible application.’” App.
8a (quoting Mayo, 566 U.S. at 78). It readily found
they did not, because the claimed steps “only require
standard techniques to be applied in a standard way.”
App. 16a.
For this analysis, the court again relied on the patent’s description of the claimed iodination and immunoprecipitation steps as “standard techniques.” Id.
The court concluded that, “[b]ecause the specification
defines the individual immunoprecipitation and iodination steps and the overall radioimmunoassay as
conventional techniques, the claims fail to provide an
inventive concept.” Id. Put another way, “the recited
steps here were conventional both as an ordered combination and individually.” App. 17a.

11
The Federal Circuit also rejected Athena’s arguments that the “newness” of the claimed methods, and
that the use of man-made materials in the claimed
methods, are enough to make them eligible. As to the
first argument, the court invoked Mayo to explain
that, “to supply an inventive concept the sequence of
claimed steps must do more than adapt a conventional
assay to a newly discovered natural law; it must represent an inventive application beyond the discovery
of the natural law itself.” App. 18a. As to the second
argument, the court concluded that “appending labeling techniques to a natural law does not provide an
inventive concept where, as here, the specification describes 125I labeling as a standard practice in a wellknown assay.” Id.
The Federal Circuit’s opinion thus applied Mayo
in a straightforward manner to reach the conclusion
that Athena’s claims “recite only a natural law together with conventional steps to detect that law, [so]
they are ineligible under § 101.” App. 22a.
C. The Federal Circuit Denied Athena’s Petition for Rehearing
The Federal Circuit then denied Athena’s petition
for rehearing by a 7-5 vote. The en banc majority, like
the panel majority, properly recognized that this case
represents a straightforward application of Mayo.
As the opinion authored by Judge Lourie succinctly explained, the ineligibility outcome under this
Court’s precedent is clear:
Under Supreme Court precedent, I do not believe that specific yet purely conventional detection steps can impart eligibility to a claim
that otherwise only sets forth what the Court

12
has held is a natural law. That is the situation presented in Ariosa, Cleveland Clinic,
and now Athena. Accordingly, as long as the
Court’s precedent stands, the only possible
solution lies in the pens of claim drafters or
legislators. We are neither.
App. 61a (Lourie, J., concurring).
Judge Lourie’s opinion also correctly pointed out
that the Federal Circuit’s case law post-Mayo has
been consistent, echoing the panel majority’s analysis:
“However, our cases are consistent. They have distinguished between new method of treatment claims and
unconventional laboratory techniques, on the one
hand, and, on the other hand, diagnostic methods that
consist of routine steps to observe the operation of a
natural law.” Id.
The other opinions supporting denial of rehearing
also recognize that under this Court’s precedent
Athena’s claims cannot stand. For example, Judge
Chen’s opinion states that “the Supreme Court has
made clear that detecting a law of nature (without
more than conventional steps for accessing the law of
nature) does not qualify as a patent-eligible application of a law of nature.” App. 90a. His opinion goes
on to explain that Athena’s claims do exactly that—
recite an “association between the antibody and the
disorder” along with “label-adding and immunoprecipitating steps [that] are conventional, standard
techniques in the art of detecting the presence of a law
of nature such as a protein.” App. 92a.
To be sure, the opinions in favor of denying rehearing express reservations about this Court’s Mayo
decision, and their authors suggest they may have
ruled differently if they could have written on a “clean

13
slate.” App. 59a. But they recognize that precedent
plainly controls, and that any attempt to change the
result in this case would be asking this Court to “reconsider” the breadth of the decision that it made—
with full understanding of the issues and ample amicus participation—just seven years ago. App. 68a.
Indeed, even many of the dissenting judges recognize that Mayo has been applied consistently. They
are just dissatisfied that this consistent application
has found certain “diagnostic” claims to come before
the court ineligible. App. 96a-99a. They set forth various purported policy justifications for changing the
law to allow for the eligibility of these types of claims.
But notably, nothing in the record of this case substantiates the expressed concerns, particularly in relation to stifling innovation.
REASONS FOR DENYING THE PETITION
I.

THE COURT SHOULD DECLINE ATHENA’S INVITATION TO CHANGE HOW IT INTERPRETS § 101

The crux of Athena’s petition is that because its
patent claims cover medical diagnostics they deserve
special treatment. They do not. This Court’s recent
decisions on the judicial exceptions to patent eligibility wisely lay out a framework that applies to all patents regardless of technology area. The Court set
forth that framework against the backdrop of over 150
years of precedent, and with due knowledge of the policy considerations in play. The Federal Circuit has
applied Mayo consistently, so no intervention by this
Court is warranted.

14
A. This Court Has Already Clarified the Eligibility Considerations for Claims Involving a Natural Law
This Court in Mayo and Alice confirmed its
longstanding interpretation of § 101 of the Patent Act
as including implicit exceptions: laws of nature, natural phenomena, and abstract ideas are not patentable. Alice, 573 U.S. at 216; Mayo, 566 U.S. at 70-71.
It also set forth a two-part framework to distinguish
patents that claim a law of nature from those that
claim patent-eligible applications of it. Alice, 573 U.S.
at 217.
Step one asks whether the claim is directed to an
ineligible law of nature. Id. If the answer is yes, step
two asks whether, considered both individually and as
an ordered combination, “the additional elements
‘transform the nature of the claim’ into a patent-eligible application.” Id. (quoting Mayo, 566 U.S. at 78).
The step two analysis looks for an “inventive concept,”
or some claim element or elements “‘sufficient to ensure that the patent in practice amounts to significantly more than a patent upon the [ineligible law of
nature] itself.” Id. at 217-18 (quoting Mayo, 566 U.S.
at 72-73) (alteration in original). “[S]imply appending
conventional steps, specified at a high level of generality” to a law of nature will not make it patentable.
Mayo, 566 U.S. at 82; see also Alice, 573 U.S. at 222.
This Court applied the two-part framework in
Mayo to process claims involving a natural law and
found them ineligible. There the claims involved the
steps of administering a thiopurine drug and later determining the level of the drug’s metabolite (the substance formed by the body in digesting the drug) in the
patient, and additionally recited precise correlations
between the metabolite level observed and a need to

15
change drug dose. Mayo, 566 U.S. at 74-75. This mattered because people metabolize drugs at different
rates, so the level of metabolite in the blood was the
important measurement. The claims stated that if the
level of metabolite after dosing exceeds a certain level,
“then the administered dose is likely to produce toxic
side effects.” Id. at 77. The Court explained that although “it takes a human action (the administration of
a thiopurine drug) to trigger a manifestation of this
relation in a particular person, the relation itself exists in principle apart from any human action.” Id.
The relation resulted from the natural process by
which the human body metabolizes thiopurine drugs,
and constituted a natural law. Id.
Having concluded the claims involved a natural
law, the Mayo Court asked, “What else is there in the
claims before us?” Id. at 78. Beyond the correlations,
the claims recited “an ‘administering’ step, a ‘determining’ step, and a ‘wherein’ step.” Id. Although
those steps are not natural laws, the Court concluded
“neither are they sufficient to transform the nature of
the claim” beyond ineligible subject matter. Id. The
Court crisply explained the rationale:
To put the matter more succinctly, the claims
inform a relevant audience about certain
laws of nature; any additional steps consist
of well-understood, routine, conventional activity already engaged in by the scientific
community; and those steps, when viewed as
a whole, add nothing significant beyond the
sum of their parts taken separately. For
these reasons we believe that the steps are
not sufficient to transform unpatentable natural correlations into patentable applications
of those regularities.

16
Id. at 79-80.
Mayo thus makes clear that claims in which a natural law is merely observed using established techniques are not patent eligible. This was not new law.
In Parker v. Flook, 437 U.S. 584 (1978), the Court
found ineligible claims that recited a process for updating an alarm limit for use in common chemical processes, employing a mathematical formula. The
method consisted of three steps: measuring a variable
in the chemical process, such as temperature; using
an algorithm to calculate what the alarm limit should
be; and adjusting the alarm limit to the new value.
The algorithm was new, but the other steps were “well
known.” Id. at 585-86, 594. The Court explained that,
to allow “conventional or obvious” post-solution activity to make a process based on natural laws patentable would “exal[t] form over substance.” Id. at 590.
Because “the application, considered as a whole, contain[ed] no patentable invention,” consisting only of
“well known” steps plus a natural law, it did not satisfy § 101. Id. at 594; see also id. (a natural phenomenon “cannot support a patent” absent “some other inventive concept in its application”); Alice, 573 U.S. at
222; Mayo, 566 U.S. at 81-82.
The fact that a claim involves a natural law is not
in and of itself fatal, as Mayo’s framework makes
clear. This Court’s decision in Diamond v. Diehr, 450
U.S. 175 (1981), illustrates why not. There, this Court
found eligible claims to a detailed step-by-step method
that used the Arrhenius equation to solve a significant
industrial problem with curing rubber. The claimed
method required continuously monitoring temperature inside a mold and using that data to open the
mold only when the rubber was perfectly cured, which
amounted to “a result heretofore unknown in the art.”

17
Id. at 177-79, 184, 193 n.15. The method confined use
of the known Arrhenius equation in a “process which,
when considered as a whole, is performing a function
which the patent laws were designed to protect”—
transforming raw rubber into precision molded products. Id. at 184, 192. Put another way, the Diehr
claims used a natural law to achieve an improved outcome with particularized features (e.g., continuously
monitoring temperature); they were not simply directed to the equation itself. Alice, 573 U.S. at 223;
Mayo, 566 U.S. at 80-81.
The Court’s decision is Bilski v. Kappos, 561 U.S.
593 (2010), is consistent with these principles. The
Court again emphasized that the addition of “token
postsolution components” to an unpatentable concept
do not “make the concept patentable,” or demonstrate
that the inventor created a “new and useful process”
within the language of § 101. Id. at 612. Process
claims that recite an unpatentable concept and tack
on only conventional activities are not eligible.
What Athena seeks through certiorari is either a
change in the settled eligibility framework that would
make patent-eligible any use of a newly discovered
natural law, or a reinterpretation of § 101 that guarantees eligibility for all medical diagnostic methods.
But that has never been the law, as this Court has
long recognized that “[g]roundbreaking, innovative, or
even brilliant discovery does not by itself satisfy the
§ 101 inquiry.” Myriad, 569 U.S. at 591. And there is
a high bar for seeking to have this Court “reinterpret”
a statute that it has already interpreted. “[C]onsiderations of stare decisis have added force in statutory
cases because Congress may alter what we have done
by amending the statute.” Patterson v. McLean Credit
Union, 491 U.S. 164, 175 n.1 (1989); see also John R.

18
Sand & Gravel Co. v. United States, 552 U.S. 130, 139
(2008). As noted in the petition and as discussed further below in Section III.A, Congress is already considering amending § 101, making the considerations
of stare decisis even more sound.
B. The Federal Circuit Has Applied this
Court’s Eligibility Precedent Consistently Since Mayo
Not only has this Court already interpreted § 101,
leaving no reason to “reinterpret” it, the Federal Circuit has had no problems applying Mayo consistently,
despite Athena and amici’s repeated suggestions otherwise. And while some Federal Circuit judges may
not always be pleased with the outcome of each case,
that dissatisfaction does not mean this Court’s articulation of law is too confusing or difficult to apply. The
Federal Circuit’s decisions bear this out.
When faced with claims reciting the use of conventional steps to observe a natural law, the Federal Circuit has consistently found ineligibility, as Mayo requires. For example, in Ariosa Diagnostics, Inc. v. Sequenom, Inc., 788 F.3d 1371 (Fed. Cir. 2015), cert. denied, 136 S. Ct. 2511 (2016), the Federal Circuit found
ineligible claims directed to a method for detecting paternally inherited cffDNA in maternal plasma by an
amplification procedure. Based on the Mayo standard, the court concluded that the claims were directed
to a natural law—the presence of cffDNA in maternal
plasma. Id. at 1376. The specification confirmed that
the claimed steps of “preparation and amplification of
DNA sequences in plasma or serum were well-understood, routine, conventional activities.” Id. at 1377.
The court thus explained that, under Mayo, “[t]he
method at issue here amounts to a general instruction
to doctors to apply routine, conventional techniques

19
when seeking to detect cffDNA,” a natural phenomenon, and were ineligible. Id.
In Genetic Technologies, Ltd. v. Merial, LLC, 818
F.3d 1369 (Fed. Cir. 2016), cert. denied, 137 S. Ct. 242
(2016), the Federal Circuit found ineligible claims directed to detecting coding sequences of a gene and reciting the physical steps of DNA amplification and
analysis. Again, the claims were directed to a law of
nature—the relationship between coding and non-coding DNA sequences—and lacked an inventive concept
because the specification confirmed that the claimed
steps were “standard experimental techniques.” Id. at
1375-77. The claims did nothing to apply the natural
law; instead, they claimed a method for observing it,
as in Mayo and Ariosa, and again here. See also Roche
Molecular Sys., Inc. v. Cepheid, 905 F.3d 1363 (Fed.
Cir. 2018) (finding ineligible claims reciting methods
to use of DNA primers because use of the standard
technique of PCR did not add inventive concept to natural law).
For similar reasons, in Cleveland Clinic Foundation v. True Health Diagnostics, LLC, 859 F.3d 1352,
1360-62 (Fed. Cir. 2017), cert. denied, 138 S. Ct. 2621
(2018), the Federal Circuit found ineligible claims directed to “methods for observing [a] law of nature”
where all the steps related to known detection techniques.
But these outcomes of course do not mean that the
Federal Circuit has interpreted Mayo as commanding
that all methods that incorporate a natural law are
per se ineligible. The Federal Circuit recognizes Mayo
and Alice require application of the two-step framework to analyze how the natural law is used within a
given claim. That court has painstakingly conducted

20
that analysis when faced with method claims that implicate a natural law. It has concluded in some cases
that claims recite eligible subject matter where they
did something other than recite the use of standard
techniques to observe a natural law.
For example, in a situation where the claimed
steps, taken together, recite a new laboratory technique that makes use of a natural law, the Federal
Circuit found eligibility. Thus, in Rapid Litigation
Management v. CellzDirect, Inc., 827 F.3d 1042, 1046
(Fed. Cir. 2016), the Federal Circuit found eligible a
“method of producing a desired preparation of multicryopreserved hepatocytes” that set out steps required
to produce such a preparation, including the use of
multiple freeze-thaw cycles. Although the claims included a newfound natural property of hepatocyte
cells discovered by the inventors—“said hepatocytes
being capable of being frozen and thawed at least two
times”—the “end result” of the claims was “not simply
an observation or detection of the ability of hepatocytes to survive multiple freeze-thaw cycles,” but a
“new and useful” method of preserving hepatocyte
cells. Id. at 1046-48.
In addition, where a method recites a natural law,
but goes beyond observing it and instead applies it in
a particular treatment regime, the Federal Circuit
has found eligibility under Mayo. In Vanda Pharmaceuticals, Inc. v. West-Ward Pharmaceuticals, Inc.,
887 F.3d 1117, 1120-21 (Fed Cir. 2018), the court
found eligible claims to a method of treating schizophrenia patients using the drug iloperidone, which required dosing patients with an amount of iloperidone
that was based on the results of a genotyping assay to
determine the patient’s ability to metabolize the drug.

21
The claims also required that this type of dosing regimen lead to a lower risk for QTc prolongation, a potentially serious cardiac side effect. Id. at 1121. The
court explained that “[t]he inventors recognized the
relationships between iloperidone, CYP2D6 metabolism, and QTc prolongation, but that is not what they
claimed. They claimed an application of that relationship.” Id. at 1135. The court distinguished the Mayo
claims because the Vanda claims required a certain
dose to be used based on the genotyping assay, which
resulted in “‘a new way of using an existing drug’ that
is safer for patients because it reduces the risk of QTc
prolongation.” Id. at 1135; see also Mayo, 566 U.S. at
87; Endo Pharms., Inc. v. Teva Pharms. USA, Inc., 919
F.3d 1347, 1348, 1353-55 (Fed. Cir. 2019).
These cases demonstrate that the Federal Circuit
has not struggled to apply Mayo in life sciences cases.
As Judge Lourie described it, “our cases are consistent.
They have distinguished between new
method of treatment claims and unconventional laboratory techniques, on the one hand, and, on the
other hand, diagnostic methods that consist of routine
steps to observe the operation of a natural law.” App.
61a. No further clarification from this Court is necessary.

22
II. THIS CASE IS NO DIFFERENT THAN THE OTHER
§ 101 DECISIONS THIS COURT HAS DECLINED TO
HEAR SINCE MAYO AND DOES NOT WARRANT REVIEW

A. Far from Being an “Ideal” Case for Review, Finding Athena’s Claims Eligible
Would Require Substantial Revision of
this Court’s § 101 Precedent
The outcome of this case under Mayo is clear, as
the district court and Federal Circuit each concluded.
The claims cover methods of diagnosis by observing
the natural relationship between MuSK autoantibodies and MuSK-related disorders using undisputedly
standard techniques. The claims do not apply the natural law underlying them in an eligible way. They are
the exact type of claims that precedent directs are ineligible.
Claim 9, which Athena treats as representative,
covers diagnosing any MuSK-related disease through
the steps of (1) putting MuSK (or a relevant portion of
it) containing the radioactive iodine label 125I into contact with a patient’s fluid sample, (2) immunoprecipitating any resulting complex between MuSK and
MuSK autoantibodies that naturally form, and (3)
thereafter monitoring for the iodine label appended to
MuSK. The claim further recites a “wherein” clause
teaching that if the label is observed that is indicative
of disease. C.A.J.A. 48-49. This teaching is a statement of the natural law because in the described assay technique the label is merely a surrogate for
MuSK autoantibodies. As in Mayo, “[w]hile it takes
human action” (mixing labeled MuSK with a patient
sample) “to trigger manifestation of” the inventor’s
newfound natural law, the relation between MuSK

23
autoantibodies and disease “itself exists in principle
apart from any human action.” Mayo, 566 U.S. at 77.
True, the claim’s plain language includes “concrete steps” in addition to the natural law, but those
steps do not constitute any advance or improvement
in existing laboratory techniques. As in Mayo,
Athena’s ’820 patent states that the steps for detecting autoantibodies recited in the claims were “standard” and “known per se in the art.” Given this, the
Federal Circuit rightly concluded that the claims “are
directed to a natural law because the claimed advance
was only in the discovery of a natural law,” and lack
an inventive concept because they “apply[] standard
techniques in a standard way.” App. 11a; App. 16a.
Athena repeatedly tries to distance its patent
from that at issue in Mayo but cannot. The only differences between them are cosmetic. Both patents recite conventional methods for observing a natural law.
Although the claims at issue here use more words to
describe those conventional steps with somewhat
more specificity, that does not and cannot render them
eligible. As Mayo explained, “our cases have not distinguished among different laws of nature according
to whether or not the principles they embody are sufficiently narrow.” Mayo, 566 U.S. at 88-89.
Accordingly, the result in Mayo would not have
been different if the patentee had more specifically
claimed the use of conventional steps. For example, if
the claims had recited “administering” the drug by
mouth and “determining” metabolite levels by high
pressure liquid chromatography, the claims still
would not have recited eligible subject matter. In fact,
some dependent claims that were ultimately adjudged
ineligible did recite high pressure liquid chromatography, a conventional technique that was well-known

24
in the art. Prometheus Labs., Inc. v. Mayo Collaborative Servs., 628 F.3d 1347, 1351, 1357 (Fed. Cir. 2010).
Similarly, here, Athena’s claims are no more eligible because they enumerate contacting labeled MuSK
with a bodily fluid, immunoprecipitating antibodyMuSK complexes, and monitoring for the label in
those complexes, than they would be if they only generically required autoantibody detection, which
many of Athena’s claims in fact do. Cf. Alice, 573 U.S.
at 226 (finding system claims reciting particular computer components directed to ineligible subject matter
for same reason as claims that generally recited a
computer). Those enumerated steps were standard
and known, as the patent itself admits. The process
of claim 9 is not new; it just uses different types of
known reagents that correspond to the newfound natural law.
This result is consistent with the long-standing
precedent that an unpatentable abstract idea or natural law cannot be made patentable by attempting to
claim its use in one type of technology. Flook found
ineligible a patentee’s attempt to claim an algorithm
to calculate alarm limits, rejecting the argument that
“if a process application implements a principle in
some specific fashion, it automatically falls within the
patentable subject matter of § 101.” 437 U.S. at 593.
According to the Court, such a rule “would make the
determination of patentable subject matter depend
simply on the draftsman’s art and would ill serve the
principles underlying the prohibition against patents
for ‘ideas’ or phenomena of nature.” Id.
Diehr also explains that “[a] mathematical formula does not suddenly become patentable subject
matter” by “limiting the reach of the patent” to “a particular technological use.” 450 U.S. at 192 n.14.

25
Bilski discussed and applied this same principle,
relying on Flook’s rule that “limiting an abstract idea
to one field of use” does “not make the concept patentable.” 561 U.S. at 612. The Court again explained
that when an “application’s only innovation was reliance on a mathematical algorithm,” embedding that
algorithm in “a particular technological environment’”
and adding conventional extra-solution steps did not
satisfy § 101. Id. at 610-11.
To rule in favor of Athena here would thus require
cabining this extensive precedent away from the business of diagnostics. But the patent law should not be
about performing legal gymnastics in favor of a particular industry—its standards should apply to each
industry equally. Under these long-standing rules,
Athena’s claims simply do not add “enough to their
statements of the correlations to allow the processes
they describe to qualify as patent-eligible processes
that apply natural laws.” Mayo, 566 U.S. at 77.
B. Under this Court’s Precedent, Marked
Differences Are Required Before a Natural Product May Impart Patentability,
and None Are Present Here
Athena suggests, as it did below, that because the
claimed methods involve the use of man-made materials, they must recite eligible subject matter. Not so.
First, the methods claimed in Mayo involved the
administration of man-made drugs, and that did not
make those methods eligible. Mayo, 566 U.S. at 7475. Athena attempts (at 30-31) to distinguish Mayo
by relying on the alleged “novel” nature of labeled
MuSK, but this argument is belied by the admission
in the specification that iodination (adding an iodine

26
label like 125I) is a “standard” technique. App. 5a. Appending a customary label to the known protein
MuSK by a standard technique does not add an inventive concept to the asserted claims such that they
are directed to something more than the recited natural correlation. App. 18a.
Second, the rationale in Myriad to which Athena
clings is not applicable. There the Court considered
the eligibility of complementary DNA (cDNA), which
includes protein-coding regions of DNA called exons
but excludes the non-coding regions called introns.
Myriad, 569 U.S. at 580. The Court held cDNA patent
eligible “except insofar as very short series of DNA
may have no intervening introns to remove when creating cDNA.” Id. at 595. Eligibility for such cDNA
turned on the fact that its sequence does not exist in
nature, and thus can be said to be “markedly different” from anything naturally occurring. Myriad, 569
U.S. at 594-95; see id. at 590-91. When eligible segments of cDNA are made, they are created as “something new” and “distinct from the DNA from which it
was derived.” Id. at 595. These very differences are
what make cDNA useful.
There is nothing “markedly different” or “distinct”
as between labeled MuSK and the non-labeled MuSK
used to make it—there simply is an attached, admittedly conventional label that permits the laboratory
technician to observe the MuSK, which functions the
same as it always does. In this regard, labeled MuSK
is similar to the fruit that was not deemed patentable
in American Fruit Growers, Inc. v. Brogdex Co., 283
U.S. 1 (1931), merely because the inventors had
coated it with a mold-resistant chemical called borax.
The borax-coated fruit was still considered a natural
product because it was not “markedly different,” or, as

27
the Court put it in that case, did not have a “new or
distinctive form, quality, or property” as compared to
the natural fruit. Id. at 11-12. So, too, does labeled
MuSK lack any different properties than naturally occurring MuSK.
The rationale from Myriad more applicable here
is that underlying the holding about the ineligibility
of “isolated DNA.” In addition to cDNA claims, Myriad had secured claims to “an isolated DNA coding for
a BRCA1 polypeptide” made up of a particular amino
acid sequence. 569 U.S. at 584. For those claims, this
Court considered Myriad’s contribution to the field
and concluded that “Myriad did not create anything.
To be sure, it found an important and useful gene, but
separating that gene from its surrounding genetic material is not an act of invention.” Id. at 591. The Court
thus held Myriad’s isolated DNA claims ineligible because isolated DNA is not “markedly different” from
DNA found in nature, as precedent requires to confer
eligibility on something involving a natural product.
Id. at. 590-91 (discussing Diamond v. Chakrabarty,
447 U.S. 303 (1980) and Funk Bros. Seed Co. v. Kalo
Inoculant Co., 333 U.S. 127 (1948)).
Simply put, extending patent protection to conventionally labeled natural materials, or processes
that use them, as Athena asks this Court to do, would
gut the Myriad decision. Indeed, the “isolated DNA”
of that case also did not exist in nature, but the difference between that and the intact DNA was considered
too limited to warrant patent protection. Id. at 59495. The same is true here of labeled MuSK.
Athena unsuccessfully relies on the Federal Circuit’s finding below in Myriad that method claim 20,
which was not part of the appeal to this Court, was
patent eligible to suggest that any method involving a

28
man-made component is patent eligible. See Ass’n for
Molecular Pathology v. U.S. Patent & Trademark Office, 689 F.3d 1303, 1335-37 (Fed. Cir. 2012). Myriad’s
claim 20 is fundamentally different from Athena’s
claims because it, as this Court’s precedent requires,
involved man-made materials that were “markedly
different” from their naturally occurring counterparts. Specifically, Myriad claim 20 required “growing a transformed eukaryotic host cell containing an
altered BRCA1 gene causing cancer.” Id. at 1310 (emphasis added); see id. at 1336. Normal eukaryotic host
cells do not cause cancer. The cells recited in Myriad
claim 20 therefore fit the requirements of this Court’s
precedent. They “are derived from altering a cell to
include a foreign gene, resulting in a man-made,
transformed cell with enhanced function and utility.”
Id. at 1336; see also Funk Bros., 333 U.S. 127, 131
(claims to combination of bacteria not eligible because
they “serve[d] the ends nature originally provided”);
Chakrabarty, 477 U.S. at 310 (finding patentable the
patentee’s production of “a new bacterium with markedly different characteristics from any found in nature”).
That the labeled MuSK recited in Athena’s claims
cannot and does not confer eligibility—even if considered a “novel” man-made material (although no such
fact finding was ever made below)—is clear from the
claims’ operation and purpose. Athena’s methods depend upon the physical binding of MuSK and MuSK
autoantibodies. To be useful in Athena’s methods, the
form of labeled MuSK must be capable of this physical
binding. Otherwise, the complexes the method is designed to detect could never form. Thus the entire
point of Athena’s claims is that the recited labeled

29
MuSK is not “markedly different” from naturally occurring MuSK. And indeed, there is nothing in the
record to suggest it is.
In short, Athena’s labeled MuSK must retain the
same function, properties, and characteristics of natural MuSK to work as directed in the claimed methods. That means this man-made material cannot and
does not bring Athena’s claims within the bounds of
eligibility drawn by this Court’s precedent.
C. Athena’s Preemption Argument Violates
Precedent, and Seeks to Circumvent the
Law of Eligibility Through “The Draftsman’s Art”
Again harping on “specificity,” Athena argues that
eligibility is warranted because its claims do not
preempt all potential uses of the inventors’ newfound
natural law.
But, as set forth above, the claims of the ’820 patent, read as a whole, do improperly preempt use of
the natural law. Claims 1 and 12 broadly cover diagnosis of any MuSK-related disease by detecting MuSK
autoantibodies in bodily fluid, with no methods specified. The patents’ other claims, including claim 9, relate back to those claims and add limitations directed
to particular, “standard” laboratory methods for detecting the autoantibodies and particular diseases
(though, notably, claim 9 itself it not limited to any
particular disease). If a patentee could simply avoid
preemption concerns by dividing up claims directed to
observing a natural law into one group that covers all
ways of doing so, and another group that recites more
specific techniques, but still offers no improvement in
the field, then the rule against preemption is entirely
meaningless.

30
In effect, this would mean that Athena’s choice to
draft generic claims that do not specify any particular
detection methods, as well as claims that specify unoriginal detection methods, would insulate it from adverse eligibility consequences. But this would flout
Flook, which rejected the notion that a “competent
draftsman” could impart eligibility merely by adding
conventional activities to a natural law, and cannot be
right. See Flook, 437 U.S. at 590.
Moreover, this Court has consistently recognized
that the prohibition against patent-ineligible subject
matter “cannot be circumvented” by limiting the
claimed use “to a particular technological environment.” See Bilski, 561 U.S. at 610-11 (quoting Diehr,
450 U.S. at 191-92); Flook, 437 U.S. at 593. So
Athena’s choice to draft its claims using one particular
technological method that is “known per se in the art”
as opposed to a different known technique does not
avoid the preemption problem.
This Court heard all the same arguments that
Athena makes here in the petitions for certiorari in
the Ariosa, Genetic Technologies, and Cleveland Clinic
cases discussed above, and denied all of them. The
result should be no different here. Like those cases,
this case is a straightforward application of this
Court’s precedent that does not warrant a grant of certiorari.
III. ATHENA’S POLICY CONCERNS ARE UNWARRANTED AND NOT THE PROVINCE OF THIS COURT
Dissatisfaction with this Court’s patent eligibility
framework and the outcomes it compels must be addressed by Congress, if at all. This Court in Mayo de-

31
clined to determine “whether, from a policy perspective, increased protection for discoveries of diagnostic
laws of nature is desirable.” 566 U.S. at 92. There is
no reasoned basis to reverse course now.
A. There Is No Evidence that this Decision
Will Negatively Impact Diagnostics Innovation
Athena, amici, and various Federal Circuit judges
allege that allowing the Federal Circuit’s decision below to stand, and its applications of Mayo to continue,
will effectively ruin the diagnostics industry, but this
hyperbolic claim is entirely speculative.
First, those issues were never addressed in this
case, which was resolved on Fed. R. Civ. P. 12(b)(6)
before any discovery took place, based on the plain admissions in the specification and by Athena’s counsel
that the techniques recited in the claims were wellknown in the art. The record does not reflect what
motivations drove the inventors, or what investment
decisions were made, even though Athena claims (at
6) it was substantial. Given the inventors worked at
research institutions abroad, it is difficult to believe
that the incentives of the U.S. patent system drove
their plans or do so today. See C.A.J.A. 35, 69.
Second, this Court already considered the same
argument in Mayo, but was rightly not moved by it.
566 U.S. at 91-92. As properly recognized, there are
two sides to the argument. The Court noted that it
did not “find this kind of difference of opinion surprising. Patent protection is, after all, a two edged sword.”
Id. at 92. The Court explained that, “[o]n the one
hand, the promise of exclusive rights provides monetary incentives that lead to creation, invention and
discovery. On the other hand, that very exclusivity

32
can impede the flow of information that might permit,
indeed spur, invention.” Id. The Court cautioned that
“we must hesitate before departing from established
general legal rules lest a new protective rule that
seems to suit the needs of one field produce unforeseen
results in another.” Id. Indeed, such caution is very
prudent here. The Court should again decline the request to implement a special rule for diagnostic patents.
Third, available evidence suggests amici’s concerns about diagnostics are unwarranted. Rather, evidence suggests that investment in diagnostics has increased tenfold since 2009. Alex De Winter, Why It’s
a Good Year for Diagnostic Startups, MedCity News
(Aug. 24, 2017), https://perma.cc/NS8M-89YS. There
has also been an increase in material biomarker
transactions and FDA approvals of diagnostics since
the Mayo decision, and an average of ten new genetic
testing products were added to the market each day
from 2015-17. Arti K. Rai & Colleen Chien, Presentation at the Duke Center for Applied Genomics and Precision Medicine: Intellectual Property in Precision
Medicine
24–26
(Feb.
15,
2018),
https://perma.cc/222C-PCQ9; Concert Genetics, The
Current Landscape of Genetic Testing 1, 5 (Mar. 2017),
https://perma.cc/K5KX-MST6.
This is certainly not indicative of a decrease in innovation or fewer advances being made in the medical
diagnostic industry following Mayo. Moreover, the
federal government funds much of the basic research
in the gene disease, which is thus less affected by patent rights and potential profits in any event. See
Sec’y’s Advisory Comm. on Genetics, Health, & Soc’y,
Dep’t of Health & Human Servs., Gene Patents and

33
Licensing Practices and Their Impact on Patient Access to Genetic Tests 25–26 (Apr. 2010),
https://perma.cc/XBC8-Q98D.
Indeed, Athena’s own financial situation shows
that it has not been harmed by the Mayo decision. The
stock price of its parent company, Quest Diagnostics,
has grown from around $57 per share at the beginning
of 2013 to over $100 per share currently, with the
price hitting an all-time high in mid-2018. Quest Diagnostics Inc. (DGX, U.S.:NYSE), Wall St. J.,
https://perma.cc/CMC7-7X3X.
Finally, this Court’s § 101 framework leaves room
for patents on medical diagnostics. In this era with
an increased focus on personalized medicine, diagnostics will no doubt play a key role. New diagnostics
that are more accurate, more sensitive, more specific,
and the like will no doubt be at the forefront of that
shift in medical care. For such significantly improved
diagnostic techniques, patent eligibility remains
available. See, e.g., CellzDirect, 827 F.3d at 1046-48.
But merely plugging a new correlation between a naturally occurring bio-product and a disease into a
known technique is not the type of activity the Patent
Act protects.
B. Policy-Based Statutory Change Is the
Province of Congress
The concerns of Athena, amici, and various judges
about any potential effect of this Court’s interpretation of § 101 on the field of medical diagnostics should
be taken up with Congress.
In circumstances like this, “[c]ongressional processes are more accommodative, affording the whole
industry hearings and an opportunity to assist in the
formulation of new legislation. The resulting product

34
is therefore more likely to protect the industry and the
public alike.” Radovich v. Nat’l Football League, 352
U.S. 445, 452 (1957) (declining to hold professional
football outside the scope of antitrust law, absent explicit Congressional exemption).
And, indeed, various industry groups, including
some of the amici in this case, have been directing
their concerns to Congress, as Congress has been considering proposed legislation to amend § 101 to loosen
the requirements for eligibility. As part of the process,
the Senate Subcommittee on Intellectual Property
held multiple hearings to discuss the proposed
changes, engaging interested parties on both sides of
the debate.
Athena and its amici cite to testimony from those
hearings claiming that the current rules set by this
Court are harmful to medical innovation, but there
was also plentiful testimony to support that the current approach is working well and, indeed, is both
beneficial for patients and not harmful to innovation.
See, e.g., The State of Patent Eligibility in America,
Part II (testimony of Jeffrey Francer, Association for
Accessible Medicines), at 4 (“[A]llowing patents on
basic breast cancer diagnostic methods and tools
would have far-reaching negative effects, including
preventing sick women from obtaining a second medical opinion.”); The State of Patent Eligibility in America, Part I (testimony of Charles Duan, R Street Institute), at 12-13 (“[T]he effects of patent exclusivity on
genetic and diagnostic tests are especially severe—errors lead to improvident surgery or undiagnosed
deadly disorders—and . . . the incentive value of patents for gene and diagnostic discoveries is particularly low.”); see also generally The State of Patent Eligibility in America, Part II (testimony of Kate Ruane,

35
American Civil Liberties Union); The State of Patent
Eligibility in America, Part II (testimony of David
Jones, High Tech Investors Alliance).
Given this diversity of opinion, this Court has already recognized that the congressional process is the
appropriate vehicle for addressing the very issue
Athena’s petition raises. Mayo, 566 U.S. at 92. And
that process has in the past been used to reconcile differing views on other aspects of the Patent Act. See,
e.g., Microsoft Corp. v. AT & T Corp., 550 U.S. 437,
457-59 (2007) (noting that Deepsouth Packing Co. v.
Laitram Corp., 406 U.S. 518 (1972), led Congress to
enact 35 U.S.C. § 271(f)).
If § 101 is to be changed in some manner, the congressional process is the appropriate avenue to do so,
not through Athena’s request that this Court reinterpret the statute now in a way that is more favorable
to Athena’s generic medical diagnostic claims.
CONCLUSION
The petition should be denied.
Respectfully submitted,
JONATHAN E. SINGER
Counsel of Record
Fish & Richardson P.C.
12390 El Camino Real
San Diego, CA 92130
(858) 678-5070
singer@fr.com

36
ELIZABETH M. FLANAGAN
DEANNA J. REICHEL
Fish & Richardson P.C.
3200 RBC Plaza
60 South Sixth Street
Minneapolis, MN 55402
(612) 335-5070
betsy.flanagan@fr.com
reichel@fr.com
Counsel for Respondents
Mayo Collaborative Services, LLC, DBA Mayo
Medical Laboratories,
and Mayo Clinic
November 22, 2019

